<html>
<title> - ENSURING THE EFFECTIVE USE OF DNA EVIDENCE TO SOLVE RAPE CASES NATIONWIDE</title>
<body><pre>[Senate Hearing 111-455]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-455
 
    ENSURING THE EFFECTIVE USE OF DNA EVIDENCE TO SOLVE RAPE CASES 
                               NATIONWIDE 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2009

                               __________

                          Serial No. J-111-67

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-520 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel


























                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    61
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     3

                               WITNESSES

Howley, Susan Smith, Public Policy Director, National Center for 
  Victims of Crime, Washington, DC...............................    10
Redding, Steve, Senior Assistant County Attorney, Violent Crimes 
  Division, DNA prosecutions and Forensics, Hennepin County, 
  Minnesota......................................................     7
Sepich, Jayann, Victims' Advocate, Carlsbad, New Mexico..........    14
Smith, Debbie, CEO, H-E-A-R-T, Inc., Williamsburg, Virginia......     4
Stoiloff, Stephanie, Commander, Crime Laboratory Bureau, Miami-
  Dade Police Department, and Board Member, American Society of 
  Crime Laboratory Directors, Miami, Florida.....................    12

                       SUBMISSIONS FOR THE RECORD

American Civil Liberties Union, Michael W. Macleod-Ball, Acting 
  Director, Washington, Legislative Office and Jennifer Bellamy, 
  Legislative Counsel, Washington, DC, statement.................    32
Boschwitz, Dr. Jeff, Vice President and Executive Officer, Orchid 
  Cellmark Inc., Princeton, Jew Jersey, letter...................    36
Department of Justice, Washington, D.C., statement...............    43
Howley, Susan Smith, Public Policy Director, National Center for 
  Victims of Crime, Washington, DC, statement....................    50
Innocence Project, Stephen Saloom, ESQ, Director, New York, New 
  York, statement................................................    56
Redding, Steve, Senior Assistant County Attorney, Violent Crimes 
  Division, DNA prosecutions and Forensics, Hennepin County, 
  Minnesota, statement...........................................    63
Sepich, Jayann, Victims' Advocate, Carlsbad, New Mexico:
    Statement....................................................    71
    Declaration..................................................    75
    Picture of Jayann's daughter, Katie..........................    81
Smith, Debbie, CEO, H-E-A-R-T, Inc., Williamsburg, Virginia, 
  statement......................................................    82
Stoiloff, Stephanie, Commander, Crime Laboratory Bureau, Miami-
  Dade Police Department, and Board Member, American Society of 
  Crime Laboratory Directors, Miami, Florida, statement..........    87


    ENSURING THE EFFECTIVE USE OF DNA EVIDENCE TO SOLVE RAPE CASES 
                               NATIONWIDE

                              ----------                              


                      TUESDAY, DECEMBER 15, 2009,

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, Klobuchar, Franken, 
Sessions, and Grassley.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning, everyone. Today the Judiciary 
Committee is holding its second hearing on the reauthorization 
of the ground-breaking Justice for All Act, and the Justice for 
All Act included the Debbie Smith Rape Kit Backlog Reduction 
Act. This authorized significant funding to reduce the backlog 
of untested rape kits so that victims need not live in fear 
while kits languish in storage, and we have seen that happen 
around the country.
    Now we are going to examine some disturbing reports that, 
despite the important progress we have made to ensure justice 
for rape victims, in too many jurisdictions large numbers of 
kits continue to sit untested. When DNA evidence taken from 
rape victims that could be used to find and convict criminals 
instead sits on a shelf, rape victims are victimized once 
again, but also our communities become more dangerous rather 
than safer. That is unacceptable, and we have to fix that 
problem.
    Since we passed this important law in 2004, the Debbie 
Smith Act has resulted in hundreds of millions of dollars going 
to States for the testing of DNA samples to reduce backlogs. 
And I have worked with Senators of both parties to ensure full 
funding for the Debbie Smith Act each year, and I compliment 
those Senators in both parties who joined with me to get that 
funding.
    Of course, I welcome Debbie Smith and her husband to the 
Committee once again. She lived in fear for years after being 
attacked before her kit was tested and the perpetrator was 
caught. Debbie and her husband, Rob, have worked tirelessly to 
ensure that others need not experience her ordeal.
    On a personal basis, let me just mention, Debbie, you and 
Rob and I have talked so many times, and I will see you again. 
Thank you for being here.
    Ms. Smith. Thank you.
    Chairman Leahy. And, Rob, thank you for being here. The two 
of you, in my orbit of friends I put you right there, right at 
the very first line, two people I admire greatly.
    As I have researched this problem of untested rape kits, 
there is one thing that I have heard again and again which 
should be of great comfort both to Debbie and Rob and to all of 
us here: the Debbie Smith program is working and it has made 
tremendous gains across the country. I have heard from the 
Justice Department, the States, law enforcement, and victims' 
advocates that Debbie Smith grants have led to significant and 
meaningful backlog reduction, and to justice for victims, in 
jurisdictions across the country.
    Eric Buel, the Director of the Vermont Forensic Laboratory, 
described to me how Federal funding for testing and a case 
manager position has resulted in the elimination of all 
backlogs in Vermont and in the efficient use of DNA evidence to 
solve cases. I hope our little State of Vermont will be an 
example for other jurisdictions, but I also note that Eric was 
very clear in saying that Vermont's success would not be 
possible without the Federal funding through the Debbie Smith 
program.
    Now, having said all that, it is clear we would not be here 
today if there were not still a problem. Despite the good 
strides we have made and the significant Federal funding for 
backlog reduction, we have seen alarming reports of continuing 
backlogs. A study last year found 12,500 untested rape kits in 
the Los Angeles area alone, and while Los Angeles has since 
made progress in addressing the problem, other cities have now 
reported backlogs almost as severe. The Justice Department 
released a report last month finding that in 18 percent of 
open, unsolved rape cases, evidence had not even been submitted 
to a crime lab.
    That Justice Department study gets to one key component of 
this problem. No matter how much money we send to crime labs 
for testing, if samples that could help make cases instead sit 
on the shelf in police evidence rooms and never make it to the 
lab, then the money does no good. Police officers have to 
understand the importance of testing this vital evidence; they 
must learn when testing is appropriate and necessary. In too 
many jurisdictions, rape kits taken from victims who put 
themselves through further hardship to take these samples--rape 
kits that could help law enforcement get criminals off the 
street--are just sitting untested. That is unacceptable in any 
jurisdiction.
    In another way, the backlog problem in some jurisdictions 
shows that we are the victims of our own success. The 
effectiveness of DNA testing and the availability of 
substantial funding for testing have led to more and more 
samples in more and more cases being sent to forensic labs. 
Labs and law enforcement also face difficult questions of 
priorities when there are limited resources.
    So we are beginning to learn of possible solutions to these 
different dynamics. There must be national standards, 
protocols, and best practices giving clear guidance to police 
officers about when kits and other relevant DNA should go to 
labs. Every jurisdiction must have real incentives to provide 
comprehensive training and put into place these standards for 
the officers who handle DNA evidence. We have to ensure good 
communication and compatible technology among labs, 
prosecutors, and law enforcement. We also should reexamine 
regulations requiring that samples sent out to good private 
laboratories then be retested in Government laboratories, 
something that costs time and money and slows our ability to 
reduce backlogs.
    I thank Senator Klobuchar, also a former prosecutor, for 
her help in putting this hearing together and her leadership on 
this issue, as well as the many other Committee members on both 
sides of the aisle who are committed to fixing this. It was 
Senator Kyl from Arizona who worked closely with me to get the 
Debbie Smith Act passed. Now let us get to the bottom of the 
problem that we still have, but we can solve that. There is no 
question in my mind we can solve it. There is no question in my 
mind that we will solve it. We will.
    Senator Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Chairman Leahy. I am firmly of 
the view that we are not as a Nation investing enough money 
into the kind of forensic evidence-gathering capabilities that 
can help us reach the best way to fight crime, particularly 
crime like rape, which tends to be repetitive. People tend to 
be repeat offenders. And I really believe we should do a lot 
more about that.
    I am not happy, frankly, with our State and local 
governments. It has always been frustrating to me that we have 
increases in law enforcement for this or that, but not enough 
for forensics. And it is not just DNA. I mean, there are 
fingerprints, there are forensics for the guns and firearm 
cases and all kinds of other scientific evidence that are often 
backlogged, leaving cases unsolved and not going forward. Even 
simple drug analysis cases that often delay prosecutions for 
months, many months, are simply waiting on a chemist's report 
to determine the substance the individual had was illegal. So I 
guess, Mr. Chairman, I really think that we are on to something 
that is important.
    I also believe the Department of Justice should be taking 
the lead in studying DNA and how it could be better applied 
just as you said. What kind of protocols and best practices 
should be out there? What kind of new techniques are developing 
now in DNA that can help local officials identify repeat 
criminals much earlier in their processes and stop 
victimization and actually reduce crime?
    So I think there are a lot of things we need to do. I do 
not think that this Federal Government should be bearing the 
responsibility of paying for every rape kit in America. It just 
does not strike me as a smart thing. So we need to be figuring 
a way to get our local law enforcement up to where they need to 
be. And if we can help creating the data base, the 
infrastructure, the protocols, the research, that would be our 
first choice. And I have supported and will continue to support 
additional Federal resources to accelerate and improve our 
State and local forensics capability. I think that is an 
important matter.
    I look forward to this excellent panel. Thank you.
    Chairman Leahy. Thank you very much, and why don't we begin 
with Debbie Smith, who has been a leading national advocate for 
the elimination of rape kit testing backlogs since she was 
kidnapped and raped near her home in 1989. More than 6 years 
later, her assailant was finally caught and linked to the crime 
through the use of DNA evidence. She has worked tirelessly, 
along with her husband, Rob, to raise awareness of the 
importance of DNA evidence contained in rape kits. She worked 
closely with me and other Members of the Congress to address 
the problem of rape kit testing backlogs. She has lent her name 
to the Debbie Smith Rape Kit Backlog Reduction Act, which 
passed as part of the Justice for All Act of 2004.
    I remember that phone call I made to you--I think I caught 
you at an airport or somewhere----
    Ms. Smith. You did.
    Chairman Leahy [continuing]. To tell you the good news, and 
as I recall, both of us were pretty emotional on that phone 
call. And it was reauthorized in 2008.
    If you would please go ahead, and then I am going to ask 
Senator Klobuchar to introduce the next witness. Please go 
ahead.

STATEMENT OF DEBBIE SMITH, CEO, H-E-A-R-T, INC., WILLIAMSBURG, 
                            VIRGINIA

    Ms. Smith. Let me say how honored I am to have been 
included in this panel before you today. As a surviving victim 
of sexual assault, I understand the great importance of the 
work to be done. I do not bring any kind of professional 
perspective to this table seated with some the top 
professionals in their field, but what I can offer you is 
firsthand knowledge of the importance of timely testing of DNA 
evidence and the elimination of the current backlog of both 
suspect and victim kits.
    For the next few minutes, I would like to ask each of you 
to remove your political hats, and I would like to ask you to 
take your place as a husband, father, or brother, or as a 
mother, sister, or friend. You have just received the news that 
your loved one was abducted from her home and taken to the 
woods, where she was robbed and raped. He entered her home in 
the middle of the afternoon through a door that was left 
unlocked for a matter of moments. This masked man repeatedly 
said that he would return and kill her if she told anyone. She 
believes him. She cries hysterically, pleading with you not to 
call the police. But in your heart you know that it is the 
right thing to do. You call the police, and your loved one sits 
in shock as she is asked countless questions. Your heart is 
breaking as you watch her trying to hold on to her sanity. 
Watching her trying to struggle and make sense out of what has 
just changed her life so completely hurts beyond measure. You 
feel helpless wanting to take away the pain that is just so 
very evident in her eyes. Within your heart and mind, a search 
begins because surely there has to be something that you can do 
to make it better or somehow easier. But you find that that 
search is in vain.
    You convince her now that she needs to go to the hospital 
to have the only physical evidence taken. This person that you 
love is begging you not to make her go, but you know that you 
have to deny these pleas, just as you denied her cries not to 
call the police. Your prayer is that you are helping her to do 
the things that she would do, make the right decisions--ones 
that she would make herself, if only she could. It is what you 
have been taught is the right thing to do, the next step.
    As the two of you walk into the hospital, you try to make 
her understand that this really is necessary. It is the only 
way that we can catch this man and prevent him from hurting 
anyone else. She walks like a frightened child, terrified and 
confused. She hears you tell the receptionist that she was 
raped. Now her mind begins to reel, ``No, because it just can't 
be true. Rape just doesn't happen to people like me.'' The 
nurse then leads the two of you to a room where the questions 
begin all over again. Questions, questions, and still more 
questions. You begin to wonder if you really have helped her to 
do the right thing after all. The look in her eyes conveys the 
sheer desperation she is feeling, needing to know that someone 
is on her side, that someone truly believes her.
    But her nightmare continues as she is asked to lie down on 
the table, to put her feet in the stirrups and to spread her 
legs. A male doctor then appears and begins this invasive 
procedure by probing, plucking, scraping, and swabbing her just 
hours after being attacked by another man. Her face reveals her 
humiliation. She is crushed and feeling even more vulnerable. 
What was left of her self-esteem has now completely vanished 
from her limp body. Simply put, she has been violated all over 
again. You only hope that one day this very procedure will 
bring justice.
    As you leave the hospital, you trust things are going to be 
better now. But it doesn't take long before the vacant stares 
give away that she has been robbed of any joy in life. Her fear 
is very apparent as you watch her struggle to leave her house 
or to even allow the children out of her sight, as her rapist's 
threats will not leave her mind. ``Remember, I know where you 
live and I will come back to kill you if you tell anyone.'' 
Because you know her so very well, you fear that one day you 
will find that she has taken her own life. All she wants is her 
freedom, peace of mind. She wants to feel safe. She wants 
justice. But she waits. My husband and I lived this nightmare.
    When a rape victim submits to this very intrusive 4-hour 
evidence collection process, she at least knows that she has 
done her part; she has done everything that has been asked of 
her to keep this man from hurting anyone else. Unfortunately, 
there is a very good chance that this vital evidence will sit 
on a shelf with thousands of other kits. Each box holds within 
it vital evidence that is crucial to the safety of women 
everywhere. Statistics prove that the average rapist will rape 
8 to 12 times before he is caught. How many of these rapes 
could be prevented? I merely existed for 6\1/2\ years waiting 
for my rapist to be identified, trying my best to deafen the 
sound of his voice in my ears. But fear for my family and 
myself held my heart and soul within its grip. I became 
suicidal seeking peace and rest from the pictures that played 
in my mind constantly. But, finally, DNA revealed the identity 
of my rapist, giving me the sweet breath of validation and 
promised justice. I want every victim of sexual assault to 
experience this gift of renewed life, and I am here today on 
behalf of those thousands of victims whose cases continue to 
sit on those shelves. I am here for those future victims and 
for those who sit in a prison cell who have been wrongly 
accused. I speak today for victims like Amy, who was attacked 
in 1996. She had no hope that her rapist would be identified 
because the rape kit collected yielded very little DNA 
evidence. Amy tried to find peace from her memories through 
therapy, antidepressants, and alcohol. By 2004, though, DNA 
technology had changed; her evidence was retested and revealed 
the DNA profile of her attacker and has linked him to at least 
two other cases. Amy says in her own words, ``Today I have 
hope. He still haunts me. I still have fear. But I also have 
hope and a new purpose.''
    I am also here for those who can no longer speak for 
themselves. A lab scientist in Florida related the story of a 
rape victim who waited until she could no longer wait anymore. 
This was evidently a case that they had worked on for some 
time, for the day that a DNA match was made, the scientist went 
to deliver the news in person to the detective working the 
case. The detective looked at her with a very solemn face and 
said, ``That is great news, but the victim committed suicide 
last night.'' Unfortunately this is not an isolated case.
    It is now time that I would ask you to put your political 
hats back on, because by doing this it empowers you with the 
ability to make a real difference. It is within your capacity 
as a legislator to make sure these kits are taken off the shelf 
and reviewed to ascertain if there is any viable forensic 
evidence within. Can you imagine going through this horrible 
examination only to have the results sit behind locked doors?
    When someone is robbed, everything possible is done to find 
this person who has taken what does not belong to him. 
Prosecution is pursued and the guilty is made to return what 
was stolen to its rightful owner. But you are powerless to 
return to a rape victim what was taken from her because you 
cannot restore her dignity, her innocence, or her peace of 
mind. You cannot remove those pictures from her mind that 
appear without warning. You just cannot. But you can give her 
justice by making her rapist pay for his crime.
    Lady Liberty stands proudly in the New York harbor offering 
freedom for all within our borders. ``Equal Justice Under Law'' 
is etched in stone across our Supreme Court building, and our 
flags are raised high, symbolic of our pledge of liberty and 
justice for all. Sexual assault victims across our country wait 
for that pledged freedom from the chains of fear and guilt her 
attacker would have constrain her. She anticipates the promised 
justice to be imparted for the crime committed against her. I 
ask that you use your power to award her what is promised to 
all Americans: Liberty and justice for all. Thank you.
    [The prepared statement of Ms. Smith appears as a 
submission for the record.]
    Chairman Leahy. I think, Ms. Smith, or Debbie, because I 
have gotten to know you and Rob so well, I think listening to 
your testimony, I think people can understand why when I called 
you a few minutes after we passed the bill, why that was such 
an emotional phone call for both of us. I thank you for being 
here.
    Ms. Smith. Thank you.
    Chairman Leahy. And, Rob, I thank you, too.
    Senator Klobuchar, the next witness is someone you know 
well. Could I ask you to please introduce him?
    Senator Klobuchar. Thank you so much, Mr. Chairman, and 
thank you, Ms. Smith, for that moving story and your courage, 
not only for telling your own story but also for being the 
voice for so many victims out there.
    And on behalf of Senator Franken and myself, we welcome 
Steve Redding, who is our next witness and a Minnesotan. When I 
became Hennepin county attorney, which is about over a million 
people, Minneapolis, 45 suburbs, I came in there from the 
outside without a lot of criminal experience, and I wanted to 
put someone in charge of the Violent Crimes Division that had 
the trust of the people in the office, and that was Steve 
Redding. He served well in that role, but most importantly for 
our hearing today, he is one of the national experts on DNA, 
and this means not only being a tough, smart trial lawyer and 
being able to convince a jury, like so many good prosecutors 
do; it also means having the willingness and the determination 
and the intellect to learn the science of DNA, which is not 
that easy for so many lawyers to dig in and read all those 
scientific articles, because we have to be as sophisticated as 
the science and the people on the other side. And he is 
someone--his wife, Suzanne, is here as well--who believes, Mr. 
Chairman, that you can use this new-found science not only to 
convict the guilty but also to protect the innocent.
    Steve Redding.

 STATEMENT OF STEVE REDDING, SENIOR ASSISTANT COUNTY ATTORNEY, 
   VIOLENT CRIMES DIVISION, DNA PROSECUTIONS AND FORENSICS, 
                   HENNEPIN COUNTY, MINNESOTA

    Mr. Redding. My name is Steve Redding, and I am a Senior 
Assistant County Attorney in Hennepin County, Minnesota. I 
supervise the sexual assault unit in our office. Hennepin 
County encompasses Minneapolis and its 45 surrounding suburbs. 
Our office serves, as Senator Klobuchar said, approximately 1.1 
million people.
    I want to thank the members of the Judiciary Committee for 
inviting me here and providing me with a brief respite from the 
Minnesota winter. I especially want to thank Senator Klobuchar, 
of course, who, as you all know, was county attorney for 8 
years. From the moment she was elected county attorney, she 
fully understood the power of DNA testing to protect women and 
children and to assist prosecutors like myself in carrying out 
our duty to convict the guilty and to protect the innocent.
    I also want to thank Mike Freeman, my present boss at 
Hennepin County--he is the Hennepin County Attorney--for his 
unwavering support in DNA issues, both now and for the 8 years 
that he was county attorney prior to Senator Klobuchar's 
election.
    DNA testing has solved many cold cases in the United 
States. I had the good fortune to prosecute the first two cold 
cases in the United States in 1992 and 1993. One was the rape-
homicide of a recent college graduate; the second was the 
sexual assault of a young woman by a serial rapist. Neither of 
those men, I am happy to say, will ever be released from 
prison.
    These successes were not the result of anything special 
that I did but, rather, due to the foresight of the Minnesota 
State Legislature which began funding the Minnesota Bureau of 
Criminal Apprehension's DNA lab in the late 1980's. The BCA 
became what it is today, an excellent DNA testing lab and a 
pioneer in DNA testing practices.
    As a recent CBS News special documented, there are large 
numbers of untested sexual assault kits. There are also 
significant disparities between State and local labs in their 
ability to timely process DNA kits.
    While it should be remembered that this issue is not as 
severe as it might seem at first blush for the reasons that I 
detail in my written submission to this Committee, many 
stranger rape kits remain untested. Approximately 2\1/2\ years 
ago, we were able to obtain a list of 99 cases where the victim 
reported that she was raped by a stranger. From those 99, I 
identified 33 where the kit had not been tested and that it 
appeared that if DNA testing was to identify a suspect, a 
prosecution might be possible.
    The results were as follows: In seven of those cases, there 
was not a sufficient amount of biological material to test. 
Thirteen of those cases produced John Doe profiles. Thirteen of 
those cases produced a hit to a convicted offender. Ten of 
those hits were to convicted offenders with previous sex 
histories; three were to offenders without a sex history.
    Of those 13, three have been convicted, five have been 
charged by my office. In two cases, we are still looking for 
the victim. One is still under investigation. And two of those 
cases, it turned out the DNA was from a consensual partner.
    These results clearly demonstrate how fruitful it can be to 
test this group of cases and this type of case. Additional 
grant funding similar to the project that I am working on now 
can yield similar results.
    One year ago, it became mandatory in Minneapolis to test 
all cases where the victim has identified her perpetrator and 
indicated that he was, in fact, a stranger. We need more 
training for police, for evidence gatherers, and for 
prosecutors. Years ago, prosecutors with DNA experience such as 
myself provided training to inexperienced prosecutors. That 
training was crucial; however, it in most cases is no longer 
available.
    In sexual assault cases, evidence collection is most often 
performed these days by a specially trained nurse. Perpetrators 
know about DNA, and they are taking steps to avoid leaving 
their DNA at a crime scene. One perpetrator carjacked and raped 
his victim and then ejaculated on her pants. As he was leaving, 
he took her pants, and she yelled for him to bring her pants 
back. His response: ``I'm taking these for DNA purposes.'' He 
thought that he had taken the only evidence which could tie him 
to the sexual assault that he had just committed on this woman. 
However, the nurse who was taking the evidence from her in a 
careful interview revealed that he had talked on her cell 
phone. She obtained her cell phone. She swabbed the receiver of 
the cell phone. That DNA profile was entered into the convicted 
offender data base, and it hit to this man. Her training and 
innovation made that arrest possible. He is charged and is 
awaiting trial in Hennepin County. For similar reasons, police 
and prosecutor training would enhance investigations.
    There needs to be more cooperation between police and 
prosecutors. If there is anything I have learned in my 32 years 
as a prosecutor, it is that when police and prosecutors work 
together, we improve outcomes significantly. Teamwork on cold 
cases is especially crucial. In many places, a roadblock exists 
to this cooperation, and I have detailed what that is in my 
submissions and suggested solutions to overcome it.
    The crime-solving ability of our national databases is 
amazing. In September 1989, a young woman was stabbed to death 
in South Minneapolis. As part of an NIH-funded cold case 
homicide project, Minneapolis Police Sergeant Barbara Moe found 
evidence, and that evidence was submitted for DNA testing. That 
evidence hit to a man whose only felony conviction was for 
felony drunk driving. Senator Klobuchar was largely responsible 
for the Minnesota law which made repeat drunk driving offenses 
a felony. I charged that man and he is now doing 25 years in 
prison for a crime that never would have been solved but for 
the fact that he was placed into the convicted offender 
database. This is a magnificent example where the law of 
unintended consequences led to a terrific outcome.
    I am fortunate to have been a part of this revolution in 
DNA evidence. I have made several observations and suggestions 
in my written submissions to the Committee. I believe the use 
of DNA typing to identify rapists can be further enhanced and 
additional rapists can be brought to justice. I outline in my 
submissions a number of areas that I think could help this.
    I want to thank you for inviting me to testify before you 
today, and I look forward to continuing my work on maximizing 
the use of DNA technology in this area.
    [The prepared statement of Mr. Redding appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Mr. Redding.
    Our next witness is Susan Smith Howley. She has been 
Director of Public Policy for the National Center for Victims 
of Crime since 1999. Is that correct?
    Ms. Howley. Yes.
    Chairman Leahy. She joined the organization in 1991, served 
as its Director of Victim Services from 2002 to 2005. She has 
written and spoken extensively on policy issues affecting 
victims of crime, recently served on the National Advisory 
Committee on Violence Against Women. I have a note that she 
received her law degree from Georgetown University Law Center, 
and some of us on this Committee, of course, find that--never 
mind. We actually have two of us on this Committee, one other 
besides myself, who graduated from Georgetown. That would be 
Senator Durbin.
    Please go ahead.

   STATEMENT OF SUSAN SMITH HOWLEY, PUBLIC POLICY DIRECTOR, 
     NATIONAL CENTER FOR VICTIMS OF CRIME, WASHINGTON, D.C.

    Ms. Howley. Thank you, Chairman Leahy. Good morning, 
Chairman, Ranking Member Sessions, and other members of the 
Committee. Again, I am public policy director for the National 
Center for Victims of Crime, which is a national nonprofit 
resource and advocacy organization that will soon celebrate our 
25th year of championing the rights and interests of victims of 
crime. Our members include victim service providers and allied 
professionals at the State, Federal, and local levels. We have 
a long history of advocating for sexual assault victims and 
working to promote the use and understanding of DNA evidence, 
and I appreciate the opportunity to appear before you this 
morning.
    Sexual assault victims call our National crime victim help 
line every day when they cannot find the help or information 
they need at the local level. They remind us, as Debbie Smith 
did this morning, that undergoing a rape exam can be intrusive, 
violating, exhausting, and confusing, especially when it is not 
conducted by a specially trained sexual assault nurse examiner.
    Once the exam is complete, victims often have no idea what 
happens to the rape kit. Many mistakenly assume that every kit 
is sent to the lab immediately, so they are very confused as to 
why they cannot get information about their case. If they later 
learn that the kit was never sent to the lab and no one tells 
them why, they become very upset and discouraged. Victims whose 
kits are lost or destroyed before processing are especially 
angry.
    One recent caller spoke at length about her frustration 
that after she had done all she could to promote the 
investigation, no one else seemed to care about bringing the 
offender to justice.
    Another recent caller was outraged that rape kits from her 
offender's previous victims had languished for years without 
being tested. She is ready to sue State and local officials 
because she is convinced that if those kits had been processed, 
her rapist would have been caught and she would never have 
become a victim.
    Our members confirm what we hear from victims, that many 
jurisdictions are not processing all appropriate rape kits, and 
that there are substantial delays in many jurisdictions around 
the country.
    Now, moving forward, we would like to appear today to offer 
a clear policy solution to the rape kit backlog, but before we 
can do that, we need more information. We need to know more 
about whether the problem is a lack of understanding about the 
investigative power of DNA evidence or a lack of funding to 
process evidence or a lack of will to investigate and prosecute 
more sexual assault cases. Each of those barriers would call 
for a different policy solution.
    We also need to know if there is any benefit from testing 
every rape kit, even if the identity of the defendant is not at 
issue. Some jurisdictions have cleared or are in the process of 
clearing their rape kit backlogs by doing just that--testing 
every kit. Their experience could give us the information to 
know whether that is out path forward.
    But at this point, we are reluctant to recommend that every 
kit be tested. If a defendant admits to the sexual conduct but 
claims consent, there may be no evidentiary value in processing 
the kit. After all, if he is later convicted, his DNA will be 
captured and submitted into the database.
    Because our capacity to process DNA and other forensic 
evidence is limited, to require testing of every sexual assault 
kit, even those unlikely to result in probative evidence, will 
inevitably reduce or delay testing in other types of cases.
    Many victims of other crime also have a compelling interest 
in the prompt testing of forensic evidence. Forensic DNA 
testing could help close many open homicide cases. Burglary 
victims can benefit from the use of forensic evidence. Families 
with missing persons could benefit if more unidentified remains 
were processed. Until our capacity for DNA testing grows, any 
prioritization of a class of cases should be crafted carefully.
    In the meantime, there is much Congress can do to improve 
the treatment of rape victims as forensic evidence is gathered 
and processed.
    First, Congress could provide additional support for sexual 
assault nurse examiners to ensure compassionate treatment and 
preservation of evidence.
    We also recommend the creation of a Sexual Assault Victims 
DNA Bill of Rights, such as California has, that gives rape 
victims the right to know whether their rape kit has been 
processed and whether an assailant has been identified.
    We also urge you to support increased public awareness that 
sexual assault victims have the right to a free forensic exam, 
even if they have not yet made the decision whether to report 
the crime. Victims typically learn about the forensic exam from 
the police or the rape crisis center, but only a fraction of 
victims will report to the police, and many victims delay 
calling the rape crisis center until it is too late to capture 
that forensic evidence.
    We applaud this Committee for its repeated efforts to bring 
justice to sexual assault victims and other victims of crime 
and Senator Franken for bringing attention to this important 
issue. The National Center for Victims of Crime looks forward 
to working with you in crafting legislation to advance the use 
of DNA evidence, reduce the backlog of rape kits, and bring a 
just response to victims of crime.
    Thank you.
    [The prepared statement of Ms. Howley appears as a 
submission for the record.]
    Senator Klobuchar [presiding.] Thank you very much. 
Chairman Leahy stepped out briefly, and so I have the honor to 
introduce Stephanie Stoiloff.
    Stephanie Stoiloff is the commander of the Miami-Dade 
Police Crime Laboratory Bureau. As head of the lab, she 
oversees forensic labs that test controlled substances, trace 
evidence, biological evidence, firearms, and tool marks. She is 
a nationally recognized leader in forensic science and has 
lectured before the American Prosecutors Research Institute, 
the National Institute of Justice, and the International 
Association of Chiefs of Police. She has also taught as an 
adjunct professor of forensic biology at the International 
Forensic Research Institute at Florida International University 
and is a current board member of the American Society of Crime 
Laboratory Directors. She received her bachelor's of science 
from Florida University and her master's from Florida 
International University.
    Ms. Stoiloff.

 STATEMENT OF STEPHANIE STOILOFF, COMMANDER, CRIME LABORATORY 
    BUREAU, MIAMI-DADE POLICE DEPARTMENT, AND BOARD MEMBER, 
 AMERICAN SOCIETY OF CRIME LABORATORY DIRECTORS, MIAMI, FLORIDA

    Ms. Stoiloff. Good morning, Mr. Chairman and members of the 
Committee. As stated, my name is Stephanie Stoiloff. I am the 
crime laboratory director at Miami-Dade Police Department, and 
I am responsible for managing the operation of a full-service 
laboratory. In addition to my duties as crime laboratory 
director, I also sit on the board of the American Society of 
Crime Laboratory Directors, which represents the interests of 
over 500 crime laboratory directors throughout the United 
States and overseas and plays an active role in ensuring the 
quality, integrity, and credibility of forensic laboratories. I 
appreciate the opportunity to testify before your Committee 
today, and I am honored to be asked to speak to you about 
ensuring the effective use of DNA evidence to solve rape cases 
nationwide.
    The role of crime laboratories is twofold: to provide 
investigative leads in order to remove dangerous offenders from 
the streets or exonerate an innocent suspect, and to provide 
the results and interpretations resulting from these 
investigations in a court of law.
    At the end of the day, there are more cases that could be 
worked. Cases must be prioritized. Generally speaking, when 
faced with a decision on how to prioritize these cases, the 
highest priority is given to those cases in which the subject 
is the greatest threat to society.
    Crime laboratories are faced with insufficient personnel, 
facilities, equipment, training, and funding to meet the 
service needs and expectations of investigators, courts, and 
citizens. Forensic science has become an increasingly critical 
component of the successful investigation and prosecution of 
criminal cases.
    In addition to DNA, crime laboratories also provide 
scientific analysis in areas such as controlled substances, 
firearms, latent prints, and trace evidence. It is estimated 
that non-DNA forensic service areas comprise almost 90 percent 
of a crime laboratory's annual caseload. A significant backlog 
exists in all areas of forensic science, not just DNA, and the 
timely disposition of cases is impacted by a lack of funding to 
support the staffing, equipment, training, and facility needs 
of forensic laboratories nationwide.
    As a result of the glamorization of forensic science on 
television, DNA requests are made of the crime laboratory 
because the jury expects the evidence to be tested. There are 
many, many requests that are made of the lab to perform DNA 
testing when the identity of the subject is not in question. If 
identity is not in question, why drain precious laboratory 
resources? Prosecutors need to explain that television drama is 
just that: a dramatization of fictitious events and 
capabilities. In a perfect world with unlimited resources 
including staffing, space, and supplies, every lab could 
analyze every sample from every case. However, the reality is 
quite different. There are resource issues nationwide that 
preclude the analysis of every item and of every case. Each 
case is evaluated separately and each case is different.
    For example, if a consensual sex case is submitted for 
analysis with an underage female and her adult boyfriend, 
should this receive the same level of attention as a stranger 
rape? Crime laboratories, as a whole, do not treat these the 
same way. We clearly understand the value of analyzing sexual 
assault evidence. This does not mean that a consensual sex case 
would not ever be analyzed, but it does mean that the 
prioritization is necessarily different. If crime laboratories 
were to examine every case as they are submitted, then other 
cases would go unexamined.
    The primary challenges that face crime laboratories? 
Backlogs exist. There is no single explanation that defines 
what makes up a backlog. Is it cases in-house that have not 
been opened? Cases in progress but not yet complete? Cases 
never submitted to the laboratory? Crime laboratories can only 
manage the cases that they know about. In our experience, a 
written prioritization policy allows the Miami-Dade Police 
Department to manage the backlog and triage the analysis of 
cases. This translates to a constant re-prioritization and 
continual juggling of priorities to meet the needs of the 
judicial system.
    This juggling is not performed in an arbitrary manner; 
there are defined priorities for all cases that enter a crime 
laboratory. Incoming priorities are the violent crimes; 
however, the cases that go to trial fastest are the property 
crimes. The question is then posed as to why valuable resources 
are spent on the DNA analysis of property crimes. Data 
collected by the Florida Department of Law Enforcement revealed 
that 52 percent of violent offenders had a burglary in their 
past. The idea here is prevention. The earlier these offenders 
are removed from society, the less opportunity they have to 
progress to violent crimes.
    Cold case violent crimes are also important, and Congress 
has repeatedly allocated funding to use current technological 
advancements to re-examine cold cases. The Miami-Dade Police 
Department has actively pursued Federal funding under the 
Solving Cold Cases with DNA grant program and has successfully 
obtained over $1.1 million to re-examine cold case violent 
crimes. Of the first 100 cold sexual crimes cases reviewed and 
submitted to the laboratory, 68 DNA profiles were developed and 
uploaded into CODIS; 32 hits were made in cases where all other 
leads had been exhausted.
    Training is an essential component of forensic science from 
the collection and submission of evidence to the analysis, 
reporting, and testimony. The Miami-Dade Police Department 
Crime Laboratory Bureau provides training to investigators, 
attorneys, and judges. Publications such as ``Guidelines for 
the Collection and Preservation of DNA Evidence'' and ``What 
Every Law Enforcement Officer Should Know About DNA'' explain 
the importance of DNA evidence. This information should be 
common knowledge among law enforcement and criminal justice 
personnel. Training curricula for every law enforcement recruit 
should include, as a matter of routine, procedures for the 
proper collection and storage of DNA evidence.
    The management of casework submitted to a crime laboratory 
is not only a law enforcement problem; it is an issue that must 
be addressed within the entire judicial system. Submission of 
every case to the crime laboratory with the expectation that 
every case can be worked is unrealistic. Every case needs to be 
evaluated separately, and not every case needs to be analyzed. 
In addition, crime laboratories do not have the resources to 
evaluate every case or every sample from every case. The answer 
to case management does not lie in the hands of the 
criminalists across the country who analyze these cases on a 
daily basis or in the hands of crime laboratory directors. The 
responsibility for case management lies in the hands of the 
entire judicial system. If the cases are not going to be 
prosecuted, why expend the law enforcement and laboratory 
resources? The efforts within a crime laboratory should focus 
on how to produce results in a timely manner for cases where 
forensic science can provide critical investigative 
information. There is no effective ``one size fits all'' 
approach to case management; this is an ever-changing re-
prioritization that must be fluid to meet the demands of the 
judicial system.
    I appreciate the opportunity to appear before this 
Committee today. Thank you.
    [The prepared statement of Ms. Stoiloff appears as a 
submission for the record.]
    Chairman Leahy [presiding.] Thank you very much.
    Our last witness Jayann Sepich. She has been a leading 
national advocate for mandated DNA testing of all felony 
arrestees since the tragedy of her daughter being raped and 
murdered as a graduate student at New Mexico State University. 
Ms. Sepich led the effort that eventually resulted in the 
adoption of Katie's Law in New Mexico. Along with her family, 
she founded DNASaves, a nonprofit organization devoted to the 
passage of arrestee testing laws across the country. Her work 
has been featured in ``Anderson Cooper 360'' and ``America's 
Most Wanted.'' She has been honored by Governor Bill Richardson 
as the Outstanding New Mexico Woman of 2007 and inducted into 
the New Mexico Women's Hall of Fame.
    Notwithstanding all the honors you have received, I am sure 
you wish the reason was not there, but thank you for what you 
have done, and we look forward to your testimony.

 STATEMENT OF JAYANN SEPICH, VICTIMS' ADVOCATE, CARLSBAD, NEW 
                             MEXICO

    Ms. Sepich. Chairman Leahy and members of the Committee, my 
name is Jayann Sepich, and I so greatly appreciate the 
opportunity to speak to you today about the very important 
issue of forensic DNA testing and the related backlogs. I am 
here as the mother of a murdered daughter, and I am also here 
representing the Surviving Parents Coalition. The Surviving 
Parents Coalition are parents of children who have been 
murdered or abducted and sexually assaulted, and as a group, we 
fight for laws that will help protect our children and young 
people.
    Forensic DNA is vital to solving crimes against children, 
particularly as children are often not able to put into words 
those crimes that were committed against them. So, as such, 
support of DNA is a legislative priority for the coalition.
    In August of 2003, my beloved daughter Katie was a 
vivacious, joyful, loving graduate student at New Mexico State 
University. She was attacked just outside of her home in a 
supposedly very safe neighborhood. She was brutally raped, 
sodomized, strangled, set on fire, and her body left at an 
abandoned dump site. I have no doubt that it is never easy for 
any parent to bury their child, but the horror and the pain of 
losing Katie in this violent manner is beyond description.
    There were no strong suspects in Katie's murder, but Katie 
fought so hard for her life that she had the skin and blood of 
her attacker underneath her fingernails, which contained his 
DNA. I know now how lucky we were that Katie's murder was such 
a high-profile case because the district attorney of Dona Ana 
County did not want to send that DNA sample to our crime lab 
because our backlog there was about a year, so she used her own 
precious budget to outsource it to a private DNA lab. That 
profile was sent to the national DNA database called CODIS, and 
I cannot describe to you what bright hope this gave our family 
because we know who had killed our daughter. We had his unique 
DNA profile. All we had to find was a match on the offender 
database.
    There are so many families across this country that also 
have this bright hope, but there are so many more who are 
waiting. Waiting. And it pains me to think of those thousands 
of rape kits that are sitting on shelves around this country 
because when I think of those rape kits, I do not think of 
evidence. I see faces. I see faces like that of my daughter 
Katie, and I feel the pain of the mothers who have buried their 
daughters and are waiting for justice. And they deserve 
justice. They deserve to have evidence in their cases tested, 
analyzed, and uploaded, because without testing, there may be 
no hope for justice. And without justice, these monsters remain 
free on our streets to victimize again and again, to rape 
again, to murder again, to cause this pain again. This is 
unconscionable.
    When I learned of the DNA evidence in Katie's case, I said, 
``This man was such a monster that surely he will commit 
another crime, he will be arrested for something else, they 
will take his DNA, we will know who he is, we will stop him 
from killing again.'' And that is when I learned that while 
every State takes fingerprints from individuals arrested for 
crimes, most States at that time did not allow for DNA to be 
taken upon felony arrest. I was stunned. We do not allow our 
law enforcement to check the DNA database for a possible match 
before allowing people accused of the most heinous crimes in 
our society--murder and rape--to be released on bail. We do not 
even bother to check the database. We just release them.
    This is when I began to research and study the issue of 
taking DNA upon arrest. Based on my research, I became a 
national advocate for the taking of DNA upon felony arrest, and 
my husband and I founded DNASaves, which is a nonprofit 
association that advocates for DNA laws nationwide. We know we 
cannot bring Katie back, but we can work to change laws so that 
we may be able to prevent this horrible pain from being visited 
upon other parents.
    In 2006, we fought for Katie's Law in the State of New 
Mexico. It is a law that requires that DNA be taken upon felony 
arrest. It went into effect January 1, 2007, at midnight. Since 
that date, New Mexico's DNA database program has registered 104 
matches of unsolved crimes to 86 individual arrestee DNA 
profiles. That is less than 3 years in a State with a total 
population of right at 2 million people. One hour and 14 
minutes after this law went into effect in New Mexico, the 
first arrestee was swabbed in the Bernalillo County Detention 
Center. It matched a double homicide. That man, James Mussaco, 
has since been convicted of murdering these two women.
    Just 3 months after Katie was murdered, a man named Gabriel 
Avilla was arrested on aggravated burglary charges for breaking 
into the home of two young women. We did not have Katie's Law 
in New Mexico at that time, so his DNA was not taken. It was 
over 3 years later that he was finally convicted of burglary, 
incarcerated, and his DNA was taken, and that DNA matched the 
DNA that Katie fought so hard to provide as she was being 
murdered. He subsequently confessed, pled guilty, and will 
spend the rest of his life in prison.
    If New Mexico had required a DNA sample for Avilla's felony 
arrest in November of 2003, Katie's murder would have been 
solved 3 years sooner--3 years that her family prayed for 
justice and waited to know that this killer was off the 
streets.
    I have to tell you that during that time I have been told 
by the Dona Ana County district attorney that over $200,000 was 
spent investigating her murder--$200,000 that would have been 
saved. But, more importantly, this man would have been in 
custody 3 years sooner, unable to victimize other young women.
    But we cannot consider one side of the database because the 
database has two sides: the offender DNA database and also the 
evidence in the database. Without a strong DNA database of 
offenders and arrestees, we will necessarily limit the 
possibility of matches that can be made. And, conversely, 
without testing of the evidence, without uploading the evidence 
in a timely manner, we limit the matches that can be made.
    In the past 6 years, I have come to meet so many families 
who have lost their daughters, as I have, so many families who 
have had their children abducted and sexually assaulted, and a 
great number of rape victims. We owe it to these people to have 
their evidence tested in a timely manner. But, more 
importantly, we owe it to our country, to our citizens, to stop 
these monsters in their tracks before they rape and murder 
again and again. We have been given a wonderful scientific tool 
in DNA that is ultimately the truth, and this truth cannot only 
solve crimes, it can prevent crimes. And in doing so, it can 
save precious lives and exonerate the innocent. We must do 
everything we can to make full use of this invaluable 
scientific tool. To do otherwise is criminal.
    Thank you.
    [The prepared statement of Ms. Sepich appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, and thank you for your 
courage in coming here to speak. You and Ms. Smith put a--it 
takes us far from the statistics and brings it to the reality. 
Those of us who had the privilege to serve as prosecutors 
before we were here in the Senate know what a lot of these 
cases are like. We see the personal side of it. They are not 
just statistics. They are human faces on crimes, the victims, 
what it does to families and communities. And what you do, both 
of you, in speaking out tells all of us what that is, so thank 
you.
    I want to ask a question of Commander Stoiloff and Mr. 
Redding. A recent National Institute of Justice report found 
that one key obstacle to reducing the backlog of rape kits 
around the country is simply getting that evidence from the 
police department to the lab. The study recommended additional 
training of law enforcement personnel, the creation of uniform 
procedures for submitting evidence, as well as improved 
training for police officers on the benefits and use of 
forensic analysis.
    I will start with you, Commander. In your experience, what 
role has training played in educating law enforcement personnel 
about the importance of DNA testing? And how about prioritizing 
those cases where DNA analysis is most useful?
    Ms. Stoiloff. Let me address the second part of your 
question first with prioritization. I think the prioritization 
is something that had to occur, as I said in my statement, in 
order to remove the offenders that are the greatest threat to 
society. So if you have a homicide and a sexual assault that 
come in with a stranger offender versus a burglary of 
somebody's car, you know, most citizens understand burglaries 
because that is what is common to society. However, the 
greatest threat would be the rapist or the murderer.
    So the prioritization is pretty clear in laboratories 
nationwide.
    Chairman Leahy. Should there be a uniform standard 
nationwide on that?
    Ms. Stoiloff. Well, I think there should be a uniform 
standard insofar as all of the offenders that are threatening, 
yes; I mean, for the violent offenders, absolutely. I think all 
crime laboratories directors, at least in my experience, and as 
part of ASCLD and anybody I have ever spoken to, understand 
that those are the highest priority. I do not think there is 
any laboratory that prioritizes as a case is submitted.
    Chairman Leahy. What about a national training program? 
Would that be helpful? Because you go from somewhere as large 
as Dade County or Hennepin County down to very small 
jurisdictions, which are actually the majority of 
jurisdictions.
    Ms. Stoiloff. I am sorry. So your question is?
    Chairman Leahy. Well, would a national training program on 
rape kits and DNA evidence help?
    Ms. Stoiloff. Well, I think the national training program 
would certainly help from the perspective of law enforcement in 
that you have a lot of law enforcement--especially, as you are 
saying, in small agencies--that are not aware necessarily of 
what DNA can do. So I think the education and training is on 
the side of what can we--you know, to know what to collect, to 
know what to submit.
    One thing that is very important is that, you know, you 
have one chance at the crime scene to collect everything. It 
does not mean everything is submitted to the laboratory or 
analyzed right away, but it does mean that it is preserved in 
the event that it needs to be analyzed at a later date.
    So I do think that there should be some kind of training 
across the--you know, nationwide as far as what the 
capabilities are. I do think there is a lack of understanding 
whether you have--forgive the expression, but the old school 
police who believe that investigation should solve every crime, 
and the realization of what physical evidence can actually do 
to solve a case I think is one side of it. And then you have 
the new recruits that come in that it should be mandated that 
they go through some sort of training.
    Chairman Leahy. Well, Mr. Redding, before my time runs out, 
you see after it gets to the police. You see it from the 
prosecutor's point of view. What do you think of this, having 
uniform standards for when the DNA gets turned over to the 
labs, national training? Are these things helpful? Or can you 
fall into a one size fits all?
    Mr. Redding. Well, I do not think you could fall into a one 
size fits all, but I do think that some type of national 
standard or some type of best practices would be something that 
would be very valuable to law enforcement. Even within Hennepin 
County, I have noticed and I have seen significant differences 
between the police departments in what they choose to send to 
the laboratory and police departments in what the people who 
collect the evidence actually collect. And we have done some 
work to try to bring those standards together so that we have 
an even policy across our law enforcement agencies in Hennepin 
County.
    But, yes, I do think that that type of training would be 
helpful. I get calls all the time from police officers who 
simply are not aware of all of the capabilities of DNA typing. 
DNA typing has changed drastically in the 20 years that I have 
been working on it, and so law enforcement needs to understand 
that, whereas 20 years ago we needed a significantly large 
sample to get DNA from, recently, for example, we obtained DNA 
from a murder victim by simply swabbing the area that we 
believed that the perpetrator had grabbed this victim, and we 
were able to--the lab was able to swab that area where he had 
put his hands on her and come up with a DNA profile that 
confirmed who we thought that was.
    Chairman Leahy. My time is up. I want to yield to Senator 
Sessions, and then I am going to turn the gavel over to Senator 
Klobuchar. As you may have gathered from some of the press, 
there are, unfortunately, several things going on here in the 
Senate right at the moment. In case I do not get back, I want 
to thank every one of you for your testimony and say how 
helpful it is, even as difficult especially for two of you, how 
difficult it must be to give it.
    Senator Sessions.
    Senator Sessions. Thank you. I thank all of you for your 
testimony, and Ms. Smith and Ms. Sepich particularly because of 
the description you have given of real-life situations that are 
so painful.
    Let me ask with regard to Ms. Smith, the 7 years you waited 
before there was a hit, it strikes me that you have to have a 
database to check the person against. Was that a factor in the 
delay in getting the identification of the person who assaulted 
you?
    Ms. Smith. Yes, it was, because with my case all of this 
was just beginning, so it was kind of playing catch-up, so 
trying to get the database set up and all of that, and so that 
was--there was really nobody at fault at the time that my case 
sat. There is nobody at fault now other than the fact that we 
have a tremendous amount of kits that we just need to figure 
out the best way to get it done, because I think that everybody 
is on the same page in wanting to get it done. It is just that 
we have got to figure out a way to get it done.
    Senator Sessions. I think that is good advice to us. We 
need to figure out how to do this correctly.
    Ms. Sepich, you described that you led an effort, I 
believe, to pass a law for New Mexico, and that law turned out 
to be the reason, it seems to me from your testimony, that you 
identified the person who had killed your daughter. In other 
words, they did the test on this person when he was arrested 3 
years later for a burglary that got the hit. Is that correct?
    Ms. Sepich. Senator Sessions, actually they could have had 
the hit 3 months after she was murdered. That is when he was 
arrested for burglary. But we did not have the law at that 
time. It was 3 years, 3\1/2\ years after she was murdered that 
he was ultimately convicted and incarcerated. The law did not 
go into effect until about a month after the hit was made. But 
we have had tremendous success since we have had the law go 
into effect in New Mexico.
    Senator Sessions. But one of the points we should all 
remember is that this individual was not arrested for another 
rape. He was arrested for a burglary.
    Ms. Sepich. That is correct.
    Senator Sessions. And that is what told the tale. And, Mr. 
Redding, you solved a case when you got a hit on a person who 
was arrested for DWI, which is unrelated.
    Mr. Redding. That is correct.
    Senator Sessions. Based on your experience--and you have 
been at this for a number of years--do you think that the 20 
States who now currently, I understand, test on arrest, that 
that is good public policy?
    Ms. Stoiloff. I do think that is good public policy. I 
think that the larger you can get the convicted offender 
database as well as the larger that you can get the database 
which contains evidence from crimes, the more hits you are 
going to get.
    So I think that is good public policy. I see no 
constitutional barrier to that being enacted into law in other 
States. And I know that the trend is in that direction. Again, 
that will cause a significant uptick in the number of samples 
which are submitted to go into the database, but I think that 
can be handled, and I think that it should be handled.
    Senator Sessions. Ms. Howley, with regard to assault 
victims, you made reference--several of you did--to rape 
victims even if they know the person who attacked them, it 
seems to me that either upon that person's arrest or from the 
DNA itself, a test should be run because maybe the victim may 
not know that this person has a tendency, you know, is likely 
to assault someone else. How would you discuss the value of 
even testing and entering this information based on a case 
where you know the offender?
    Ms. Howley. When the offender is known to the victim, we 
know that so many sex offenders are repeat offenders, and your 
ability to upload that person's sample will depend on their 
being convicted or in many States arrested.
    At this point, if you were to run a rape kit on a known 
defendant, that information would not be uploaded into CODIS 
because----
    Senator Sessions. Is that right?
    Ms. Howley [continuing].--Yes, because you have a known 
defendant. It would only then be when he----
    Senator Sessions. That would be a policy error, would it 
not?
    Ms. Howley [continuing].--Well, when we are talking about 
greatly expanding our demand on CODIS, I think we do have to be 
careful going forward. Again, that sample, if he is arrested, 
in about half of the States would go into CODIS. And if he is 
later convicted, we would get it into CODIS. And there you are 
right, we could start to see patterns.
    Senator Sessions. I see, yes.
    One quick question, Ms. Stoiloff. If a rape victim is 
examined properly, do you have to do multiple DNA checks to 
make sure that you are getting good information? In other 
words, how many actual readings and how much DNA do you have to 
gather per victim?
    Ms. Stoiloff. When the victim responds to the rape 
treatment center, there is a standard protocol that is followed 
for collection. There is a standard number of swabs and slides, 
et cetera, that are taken at the time.
    When we analyze the evidence in-house, we analyze it once 
unless it is required to be retested for court purposes, either 
the original analyst is not there or for whatever reason, the 
analysis is done once, and the victim does not have----
    Senator Sessions. There could be multiple swabs.
    Ms. Stoiloff. Correct.
    Senator Sessions. And you analyze each swab.
    Ms. Stoiloff. We would analyze each swab, correct.
    Senator Sessions. If the person was arrested and you did 
it, you would only have to have one swab or specimen of that 
person's DNA to put it into the database. Is that right?
    Ms. Stoiloff. Well, if I am understanding you correctly, 
the information, if it is obtained--like if we were to obtain a 
male profile from one of the items of evidence, we would not 
need to test multiple items to put that profile in. However, 
when we do test the rape kit, we do test multiple items, but 
the profile is only entered once. Does that satisfy your 
question?
    Senator Sessions. I think so. I just think if you identify 
the perpetrator, you know the perpetrator, I think it could be 
put in and might not cost quite as much as if you were having 
to obtain the sample from the rape victim.
    Ms. Stoiloff. Well, we need the sample from the victim to 
compare against--in the interpretation to know whether, you 
know, what information is there. Every case is different. 
Sometimes the details of the case necessitate comparison to the 
victim, so we always take the victim standard as part of the 
rape treatment kit. However, I can tell you that in our 
experience we work every case with a standard--even if the 
subject is known, we still work it, obviously, for prosecution 
reasons. And in Florida, we put the standard in. So I would 
take the subject standard, and that would go into the database.
    We do not know if, when he is arrested. In the laboratory 
setting, we do not have any knowledge of the disposition unless 
we happen to testify.
    Senator Sessions. Thank you.
    Senator Klobuchar. Thank you very much, Senator Sessions. 
Again, thank you, Ms. Sepich and Ms. Smith, for your moving 
testimony, and thank you for coming forward.
    Ms. Smith, you mentioned in your testimony, I think your 
written testimony and your story, about the need for well-
trained nurses and how critical that is for collecting the 
evidence and making sure that victims do not feel revictimized 
when the evidence is collected. Do you have any thoughts about 
what we could do to better train these nurses in this area as 
well as get more medical students, nursing students to go into 
this area and be trained?
    Ms. Smith. Yes. There is a wonderful program, Sexual 
Assault Nurse Examiners, that are trained specifically to take 
this exam. In my case, my doctor was actually reading the 
instructions as we went along. That is not real reassuring when 
you are going through an exam like this. But the sexual assault 
nurse examiners are not only trained how to get information 
that the average doctor may not even think about, but she is 
also trained to know how to do those first emotional needs of 
her patient.
    In a very good sexual assault nurse program, you will have 
rooms that are set aside so that the victim can go into a room. 
These sexual assault nurse examiners, that is all they are 
there for. It is a one-on-one examination. With me, I had three 
different nurses asking me questions and then a separate 
doctor, and that----
    Senator Klobuchar. So it builds trust to just have one.
    Ms. Smith [continuing].--Exactly. Plus you have all the 
confusion that just--and she is trained to know or he is 
trained to know exactly what questions to ask, how to ask them, 
and I cannot tell you the difference that that can make.
    Senator Klobuchar. Thank you.
    Speaking of that kind of coordination and efficiency, Mr. 
Redding, you talked about how there needs to be better 
cooperation and coordination with prosecutors and law 
enforcement with these labs, that the labs do not just serve 
the police, they also serve prosecutors. Do you want to talk 
about why that is important and if you think there is something 
that we can do to enhance that cooperation?
    Mr. Redding. That is very important, as I have indicated, 
not just in cold DNA cases but any time that a prosecutor and 
the police cooperate during the investigation and the pre-
charging aspect of a case, uniformly that case turns out to be 
better and we have better results from that case.
    One of the things that happens and that I realized needed 
to be corrected was that the only person who was being advised 
of a hit was the police officers, and I received a call some 
years ago from our lab saying, ``What happened to these 25 
cases of homicides and rapes?'' And I didn't know anything 
about most of them. So I contacted the police. We began 
together to investigate those crimes, and we were able to 
charge and convict a number of those people.
    So I have now set up in our jurisdiction contemporaneous 
notice from the laboratory to me as well as the police 
department, and that enables me to get involved immediately if 
that case--if it is important. And it is important because 
prosecutors can teach and are teaching across the country 
interrogation techniques for police officers, which are 
different in cold cases than they are in the regular 
investigation. And if they are investigated differently and if 
the interrogation goes differently, we have a much greater 
chance of success.
    Senator Klobuchar. And, again, along these lines of 
efficiency, getting better results, we all want to get these 
rape kits tested. There is no doubt about that. Some of the 
previous hearings we have had on this issue--and we also want 
to get you more funding to do that. At the same time, I know as 
a local prosecutor there is nothing worse than a mandate 
without the funding. Leave the money behind, right?
    So what I would like to know and hear from, I guess, you, 
Mr. Redding and Ms. Stoiloff, is just explain to me how we can 
best use these resources if we give you more resources. Are 
there certain kits that you would argue should not be tested, 
or should they all be tested? What are the criteria you think 
that we should look at as we go forward? Mr. Redding.
    Mr. Redding. Well, in sexual assault cases, I agree that 
there is some value to testing acquaintance rape kits. 
Obviously, laboratories have to prioritize, and they must 
prioritize, and almost all laboratories do. Our laboratories 
certainly do.
    Senator Klobuchar. Because it is not just DNA, right? There 
is even more evidence, other kinds of evidence. There is more 
than DNA.
    Mr. Redding. Yes, there are many types of other evidence in 
the laboratories, and prosecutors, of course, have to deal with 
statute of limitations questions and those kinds of things that 
arise.
    But I do think that as we move forward, we are going to 
discover and we are going to be able to ascertain what the 
value is of--whether or not we should test every sexual assault 
kit.
    In the grant that I am working on now, we are evolving that 
opinion as we go along. Our grant expires in June. We are 
looking now to see whether or not in acquaintance rape cases 
that man who is identified by the victim is, in fact, in the 
offender database. If he is in the database, then there is not 
the significant reason to test that case or that kit because, 
if he is in the database, his case or his profile would have 
already hit to an unsolved case. So we do not need to do that. 
That eliminates a significant number of the acquaintance rape 
cases that we would think that there is value in testing.
    Senator Klobuchar. OK. Ms. Stoiloff, do you want to add to 
that?
    Ms. Stoiloff. I would say I agree with what Steve said. The 
prioritization certainly needs to be any stranger rape case, 
and as I said earlier, when you have a written prioritization 
policy, that is clear that that is what is going to happen when 
the case comes into the laboratory. The issue becomes if a 
stranger rape comes in and it is not addressed, that is what 
should be handled by each laboratory correctly, if you will. 
And the point that Steve made about getting the profile in the 
database, I mean, we even in our laboratory, in our experience, 
if the case is negative, we will still--meaning that there is 
no male profile, no foreign profile obtained, we will still 
work the standard that is submitted of the subject and put that 
into the database. So we will do everything we can to get the 
profile in there. And, you know, sometimes it means that there 
is no evidence to test, but they will submit the standard, and 
we will put that in as well.
    Senator Klobuchar. So, just to summarize this, you want 
those tests, you want the kit done, but once they get there, 
you want them preserved and there to use. But there may be an 
argument for prioritizing some of them while testing, clearly, 
in all the stranger rape cases. Is that fair to say?
    Mr. Redding. Yes, that is correct.
    Senator Klobuchar. OK. Thank you very much.
    Senator Grassley.
    Senator Grassley. Thank you, Madam Chairman, and thanks to 
all of you for your testimony. I am just going to ask a few 
questions of Ms. Howley. I have had the opportunity to work 
with her before on Dorgan's bill on the Restitution of Victims 
of Crime Act. I thank you for working with us on that.
    I was glad to have Senator Franken ask me if I would join 
him as a lead cosponsor of this Justice for Survival of Sexual 
Assault Act because I think that this would cut down on the 
backlog of untested rape cases.
    Now, you seem to raise the question, as you discussed in 
your testimony, of the need to know more about the backlog of 
untested kits before you would have a concrete recommendation 
to address the problem. I understand your concerns that we test 
DNA samples effectively and efficiently. So a few questions 
along that line.
    Do you believe a requirement that State and local 
governments provide statistics to the Federal Government on 
untested rape kits on the backlog thereof would be useful?
    Ms. Howley. I think having that information would 
definitely be useful. My concern is I am not sure how difficult 
it is to require States to provide that. NIJ and others have 
been trying to quantify precisely the existing DNA database for 
many years, and so I would just want to be sure that we 
understand what the barriers have been to getting precise 
figures before we demand that of States.
    I certainly agree that we need that information and we need 
to figure out how we can best get it. I think part of the 
problem has been, as I believe Ms. Stoiloff said earlier, 
sometimes you have kits that are in the local law enforcement 
or local sheriff's office and you have other kits that are in a 
lab. It might be a local lab, it might be a private lab, it 
might be a State lab.
    I believe one of the problems has been identifying all 
those locations. Maybe some are still kept at the hospital and 
have not been forwarded. So identifying what exactly do we want 
to count as part of the backlog and where exactly can we get 
those numbers.
    You know, we have had problems before where I know many 
lawmakers have tried to get precise figures from their State. 
They might be told by the State lab, ``We have no backlog.'' 
Well, that may be true at the lab level, but if you were to go 
around to all of the local law enforcement, you might find 
there are quite a few samples that have not been forwarded.
    So that is my concern. Not that we definitely need the 
information, but we should figure out how realistic can we be 
that we will have a precise number.
    Senator Grassley. Well, will the annual reporting 
requirements assist in reducing and eliminating the backlog by, 
you think, essentially shaming jurisdictions into testing more 
rape kits?
    Ms. Howley. I think that any time that we can use real 
numbers to draw attention to a problem and then have real 
numbers to measure the effectiveness of agencies in addressing 
that backlog, that is clearly an important step.
    Senator Grassley. What do you recommend for the sort of 
information required of the States or from the States?
    Ms. Howley. I am sorry. Can you restate that?
    Senator Grassley. What sort of information should be 
required from the States that we are trying to get the 
statistics on?
    Ms. Howley. I think States should be given clear guidance 
as to what should be considered part of the DNA backlog and 
then urged to measure that backlog. So States should be given 
guidance that we want not only the backlog that exists at your 
State-level labs and your local labs, but your private labs. We 
want not only the number of samples that are in your major 
cities, but also your smaller jurisdiction law enforcement 
offices.
    Senator Grassley. I am going to move on to another 
question. In some States, rape victims are required to pay for 
their own rape kits and seek reimbursement after the kit has 
been processed. My judgment is rape victims should never have 
to pay for the cost of the kit. Evidence collection is 
obviously an integral part of law enforcement. This Survivors 
of Sexual Assault Act includes a provision that requires States 
to be responsible for full up-front costs of the kit, 
examination. This is an important provision.
    Do you think that the current law allowing for 
reimbursement of rape kit costs by States as opposed to full 
payment up front has caused any rape victims to avoid having a 
rape kit collected?
    Ms. Howley. While I am not aware of any cases where that 
has happened, that would likely be a result. Most States do not 
require victims to pay for the rape kit and then seek 
reimbursement. Most States pay for it up front, and often 
through their crime victim compensation program. Under the 
compensation program, the very fact of requesting a forensic 
exam counts as reporting for purposes of having the cost of 
that exam reimbursed. In most States, the victim will never see 
a bill for the forensic exam. The hospital will send it 
directly to the compensation program or the other government 
payment source.
    Senator Grassley. See, I thought--maybe I have got it 
wrong, but I thought that there was more requirement to pay and 
it was holding people back. So if it is not a problem, I think 
we have a problem getting word out that that is not the case.
    Ms. Howley. We definitely do have a problem getting word 
out, and part of this is because this system has been evolving 
in many years. So it could be that previous victims or previous 
advocates are not aware of the change in procedures. States 
have made a real effort, especially through mandates under the 
Violence Against Women Act, to change the way that they are 
reimbursing--or to change the way that they are paying for 
forensic exams. But a lot of that change is recent.
    Senator Grassley. OK. Thank you.
    Thank you, Madam Chairman.
    Senator Klobuchar. Thank you very much, Senator Grassley.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair, and I want to 
thank you and Chairman Leahy for your leadership on this issue. 
I want to thank each of our witnesses, Ms. Smith, Ms. Sepich, 
for your courage and strength, and Mr. Redding and Ms. Stoiloff 
for your expertise and professionalism, and Ms. Howley for your 
advocacy.
    Last month, I introduced a bill, joined by my colleagues 
Senator Grassley and Senator Hatch and Senator Feinstein, that 
would create financial incentives for jurisdictions to process 
their rape kit backlogs and make sure that processing them 
continues to remain prompt.
    The truth is, I think, that this is one of those issues in 
Congress where we all can agree on the big picture. Rape is a 
heinous crime, and we need to provide our law enforcement 
agencies with everything they need to prevent it and bring 
perpetrators to justice. So I just want to ask a few questions 
on this front.
    Mr. Redding, in your testimony you said there is a need for 
improve infrastructure and lab capabilities so that DNA 
evidence can be processed as quickly as possible. The National 
Institute of Justice study revealed that six out of ten police 
departments surveyed lack computerized evidence-tracking 
systems. They rely on paper tracking systems. And it is no 
surprise that when some police departments review their 
inventories, they discover stores of untested kits. This 
happened in Detroit and Los Angeles.
    Mr. Redding and Ms. Stoiloff, how do your departments track 
DNA evidence? And what kinds of Federal resources are available 
to help police departments set up the kind of tracking systems 
that they require?
    Mr. Redding. Well, again, as I mentioned, in my county 
there are 46 different jurisdictions or different law 
enforcement jurisdictions, and that ability to track 
information and to track inventories does vary significantly. 
Minneapolis has a good system that I can access from my office 
and my paralegal can access, and so we are able to look at 
those issues and look at what is there when we want to try to 
ascertain is this a case that we can do something with or has 
the evidence never been submitted or never been inventoried. So 
I have good access there.
    I do not have the same kind of access in some of the other 
smaller suburbs. I think there needs to be uniform best 
practices recommended to jurisdictions for how long they hold 
onto evidence and for how long they hold onto police reports. 
Even in some places police reports are being destroyed within 7 
years, and that is very troubling to me as a prosecutor, when 
we have expanded the statute of limitations, as we have in 
Minneapolis, yet we still have a situation where we can go back 
to 1991 to prosecute these cases, but the police reports have 
been destroyed.
    So we do need a better practice and a best practices 
suggestions for jurisdictions about how long they keep 
evidence, how they keep track of that evidence, and how long 
they keep even something as basic as police reports. It is very 
important, and it is crucial.
    Ms. Stoiloff. Aside from the Miami-Dade Police Department, 
we also have over 36 municipalities in Miami-Dade County, so I 
can only address what happens with our agency. I have no idea, 
to be honest, how they track evidence in the other agencies.
    We do have an in-house LIMS system, if you will, which is a 
Laboratory Information Management system. However, what that 
does is actually tracks--we know what we have in-house. As far 
as what is in the property room, even I do not know that, what 
is actually there from years ago.
    We are, however, as I said, actively--we have been doing 
cold cases since 2001, reviewing cold sexual assaults and cold 
homicides. So we have pretty much covered everything with our 
own agency as far as what has been collected and stored. But, 
unfortunately, I agree with what Steve said, that there are 
issues that need to be addressed so that there is uniform best 
practice with other agencies, too.
    Senator Franken. Thank you. I want to move on and highlight 
the experience of some of the jurisdictions that have chosen as 
a default to test all or nearly all rape kits. These 
jurisdictions have seen their arrest rates for rape increase by 
as much as 30 percentage points and have had thousands of cold 
hits.
    Our average national rape arrest rate is 22 percent. 
Jurisdictions that have implemented a ``test all kits'' policy 
have seen them climb to up to 70 percent, more than 3 times the 
national average.
    Ms. Howley, what in your mind is keeping all jurisdictions 
from moving toward this model?
    Ms. Howley. I believe that there are three barriers, as I 
outlined in my testimony, and the NIJ report indicated a big 
one is that local law enforcement agencies do not always 
understand the evidentiary value of DNA evidence, that it can 
be used to solve crimes. So many law enforcement agencies in 
that NIJ survey indicated they were not forwarding for testing 
where there was not already a suspect, so that indicates one 
problem.
    Another, of course, is funding. If a local law enforcement 
agency has heard that the lab is overloaded or already knows 
that it will take more than a year to get something back from a 
lab, they may not be forwarding information because they know 
they cannot get it in a timely fashion, and that would be 
directly related to funding to increase the capacity and reduce 
the lag time.
    But a third issue could be a lack of will. We know in too 
many places law enforcement agencies make a judgment as to the 
importance or value or credibility of the victim based on what 
they think a rape victim ought to act like. When talking to our 
members about the problems that they see, many of them 
highlighted the need to train law enforcement about sensitive 
response to victims of sexual assault so that they can better 
understand why a rape victim may be presenting with what is 
called a flat affect--no emotion. She is no longer hysterical. 
Law enforcement needs to be trained to know that does not 
necessarily mean she was not a victim. So I would prioritize 
that as well.
    Senator Franken. Thank you. I have run out of time. I just 
want to make one little point on the reimbursement issue. I 
just want to highlight that we have heard from advocates like 
Human Rights Watch that people are slipping through the cracks 
and that some women pay for their kits up front and that some 
of them are never repaid the full cost. And my bill on this 
would close those loopholes.
    Thank you, Madam Chair.
    Senator Klobuchar. Thank you very much.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair. Thank you, Ms. 
Sepich and Ms. Smith, for your extraordinarily powerful 
testimony. Thank you, Ms. Howley, for your voice on behalf of 
victims across the country. And thank you, Commander Stoiloff 
and Mr. Redding, for your service in law enforcement.
    Clearly, the science of DNA has sped far, far ahead. My 
first realization of it was a murder case where we were able to 
get DNA off a beer bottle that the perpetrator of the crime had 
taken a swig out of during the course of his time in the home 
of the murder victim, and I suspect it has rocketed forward in 
the years since then. So I think it is a very valuable tool, 
and I assume that all of you would support mandatory DNA 
testing of violent criminals.
    Mr. Redding. Yes, I certainly would, Senator. Any way that 
we can get the DNA from a person who has committed crimes and 
who has been arrested, as I said, get that into the database, 
larger databases of convicted offenders along with a larger 
database of crimes which have been tested, when those databases 
are searched against each other, we get more hits the bigger 
they are.
    Senator Whitehouse. Let the record reflect that all five 
heads were nodding in agreement. Yes, because at that point you 
are no longer confirming evidence and using it as a tool of 
proof. It becomes an investigative tool against a larger 
audience, and that adds enormously to the value of the DNA 
sample.
    In terms of prioritizing rape kits, does the prioritization 
need to take place more at the lab or more at the investigative 
side in the police and prosecutor's office? I assume that--I do 
not know the answer to the question, so why don't you--or do we 
need prioritization at both points?
    Mr. Redding. At least from my experience, the problem is 
not prioritization at a lab. I think the labs that I deal with 
are properly prioritizing. I think the problem is the 
prioritization within the police department, to some degree 
within the prosecutor's office, but I do not want to fault the 
police department, but I think that----
    Senator Whitehouse. That is the area where the 
prioritization would make the most sense?
    Mr. Redding. That is the area, and when we have changed 
that prioritization and we get more kits, we do get better 
results. And I want to just briefly comment on police making 
that determination about whether a victim is credible or not.
    Many victims, our most vulnerable victims, are homeless. 
They have a chemical dependency problem or they have, you know, 
some other problem, possibly a mentally ill problem, and so 
they are preyed on. And we need to get those victims' DNA 
results into our database as well. They can be linked to other 
cases, and we have done that on a number of occasions and been 
able to prosecute cases where we have gotten multiple hits.
    Senator Whitehouse. I have just a minute or so left and two 
more questions. One is, Do any of you fear that a broader 
regime of mandatory DNA testing would test the capacity of the 
private laboratories to run the DNA? Or is there not that kind 
of a capacity problem?
    Ms. Stoiloff. There is definitely a capacity problem. All 
laboratories nationwide have a capacity problem if there is a 
mandate that we have to do every single kit. Even without 
mandating every single kit, the prioritization still allows you 
to handle----
    Senator Whitehouse. I meant mandatory testing of every 
single violent criminal.
    Ms. Stoiloff. Oh, as far as the offender.
    Senator Whitehouse. Offender testing.
    Ms. Stoiloff. It is actually done. It is separate. There 
are convicted offender laboratories for each State, and then 
there are local and State labs that process evidence. So it 
would be necessarily different, but the money would be 
allocated by the State.
    Senator Whitehouse. So the additional burden of processing 
offender data would not impede the evaluation of DNA evidence 
in active cases?
    Ms. Stoiloff. They are separate laboratories. So the 
forensic laboratory would have the capacity to do the evidence 
cases, and the convicted offender database lab would have the 
capacity. But anytime you mandate any kind of testing like 
that, the funding has to go with it. As the Senator stated 
earlier, you know, we have had quite a few unfunded mandates 
even in Florida that now they have learned to write in that if 
it is not funded, it cannot happen.
    Senator Whitehouse. And the last question just to the law 
enforcement representatives, just for the sake of the record, 
the effects of delay in processing evidence in an ongoing 
investigation are often more than just loss of time. Could you 
each briefly comment on some of the collateral damage that 
takes place in an investigation where the investigation cannot 
move rapidly forward and does not have timely access to key 
evidence?
    Mr. Redding. That can be devastating to victims. It is 
devastating to wait years and then to get a call from a police 
officer or a victim witness advocate in my office and say, 
``You know that thing you have been trying to put behind you 
and you have been trying to forget for all these years? Well, 
we are going to reopen that wound for you''--for a good reason, 
of course, but that is very painful. It is not an easy call to 
make. It is not a call that we ever want to make.
    So I would like to see the system take care of that and 
contemporaneously process sexual assault kits and other 
evidence kits so that time lag----
    Senator Whitehouse. But from a prosecutive point of view, 
you also lose witnesses, lose recollection, raise cross-
examination issues. I mean, setting aside for a moment the 
effect on the victim, the effect on the case itself is often 
significant beyond the simple delay, is it not?
    Mr. Redding. Yes, it is. It can be severely compromised. 
Evidence, you know, goes away. It is lost. Memories change. We 
have had a number of cases where important witnesses are 
deceased by the time that we get the DNA result, and so that 
compromises our case. We are looking at some of those cases now 
in an attempt to see if we can work around that problem, but it 
certainly is a problem.
    Senator Whitehouse. Thank you.
    Thank you, Madam Chair.
    Senator Klobuchar. Thank you very much.
    I have just a few follow-ups here. I wanted to just go at 
this issue again, Mr. Redding--and Senator Whitehouse touched 
on it--of the national databases and how comprehensive they 
are. I know in your written testimony you talked about how 
Wisconsin discovered that it had 12,000 convicted offenders who 
were, nevertheless, not in the convicted offender database, and 
this I do not think was an issue of the testing as much as the 
data was not dumped in. Is this right?
    Mr. Redding. That is correct. Again, my understanding is 
that some of this is this reaction to an unfunded mandate. Some 
of the localities are required, of course, to collect kits from 
all convicted offenders within the particular county, and I am 
aware that that costs money to the counties, and it is somewhat 
of a burden to counties which are strapped, and as a result, 
those counties are not as vigorous as they should be in 
collecting that data.
    So I am sure that Wisconsin is not alone in this, that 
there is a problem of uncollected kits----
    Senator Klobuchar. So you are not just picking on them 
because of the Packers?
    Mr. Redding. I am not picking on them because of the 
Packers.
    [Laughter.]
    Senator Klobuchar. But you are saying that you believe this 
happens in other States and it is the actual physical entry of 
the data?
    Mr. Redding. I do. I would be shocked if it did not, yes.
    Senator Klobuchar. Do you know if we have that going on in 
Minnesota?
    Mr. Redding. There is a problem with it in Minnesota that 
we are attempting to correct right now, but, yes, it is an 
issue.
    Senator Klobuchar. Ms. Stoiloff, I was just talking about 
how the sort of nitty-gritty testimony today makes us realize 
that with the Miami Police Department not every day is like 
``Miami Vice''--right?--and that there is a lot of hard work 
that is done in the labs every day to catch these perpetrators. 
Do you want to comment about what Mr. Redding just noted, this 
lag in getting the information actually in the databases?
    Ms. Stoiloff. Well, I can say, for the most part, the 
prioritization helps with the lag, if you will, on the high-
priority cases, especially in cases where in homicides where 
you have so much evidence that is collected at a scene that we 
actually have meetings as soon as possible with the detective, 
the assigned analyst, and the prosecutor to resolve some of 
these issues and identify what needs to be analyzed right up 
front. So it is a matter of--it is a short turnaround on 
current cases.
    Now, for cold cases it is a different story, so you have 
the technology to solve the crimes, but then you have a problem 
finding witnesses, et cetera. So it is sort of twofold. But I 
think as long as we adopt a best practice in addressing these 
issues immediately, you know, as soon as the cases are 
submitted, that should help some of those. And, no, we do not 
drive Hummers.
    [Laughter.]
    Senator Klobuchar. All right. I will remember that.
    The other thing that you mentioned in your testimony, which 
I have heard before from our lab directors, is just the 
forensic scientists and the amount of money that is put in to 
train them by the Government and to get them up to speed. And 
then what I have heard--and I do not know if this was in your 
testimony--is then a lot of times they may leave and go 
somewhere else, maybe to the private sector, maybe to another 
lab that pays a little more, and it becomes like a bidding war. 
And I have certainly heard this in our State.
    Do you want to comment on that?
    Ms. Stoiloff. We have the same issue. Unfortunately, as 
nice as Miami looks on TV, we do have a problem that these 
analysts want to come--forensic science is a hot thing, is a 
hot place to go, and they want to come and be trained wherever 
they can get a job. We have had the misfortune to lose quite a 
few over the----
    Senator Klobuchar. Where do they go?
    Ms. Stoiloff. Usually home, like wherever they came from. 
So----
    Senator Klobuchar. But they go to other labs?
    Ms. Stoiloff. But they go to other labs.
    Senator Klobuchar. A government lab----
    Ms. Stoiloff. But it is not a situation, though, where they 
are seeking a job anywhere else, you know, so I do not want to 
portray that the Miami-Dade police lab is bad in any way, but 
they are going to where they came from and where their families 
are. And so that becomes a problem because it is a 2-year 
training process for DNA. And so from the date of hire, which 
is a whole different issue, to get them hired and in-house, and 
then it is 2 years' training, it is effectively 2 years until 
they are--you know, they may be--I may have zero vacancies, but 
essentially carry them as non-DNA analysts for 2 years.
    Senator Klobuchar. Does anyone else want to comment on 
that?
    Mr. Redding. I would just like to comment briefly and echo 
that. That is a tremendous issue. As you know, Senator, we can 
hire a prosecutor, an experienced prosecutor, and throw him 
right into the courtroom. You cannot do that with a DNA 
analyst. You have to wait for them to complete the training, 
and it is a long training. And so when you lose an analyst, 
like we lose them in the Minnesota BCA or you lose them in 
Miami, you cannot throw somebody else in there right away. So 
it is a significant problem.
    Senator Klobuchar. OK. Anything more anyone wants to add 
here?
    [No response.]
    Senator Klobuchar. Well, I just want to thank you for your 
testimony today, for taking the time to be here. As you can 
see, we are very devoted to working on this problem. We know 
that there have been improvements made, and the improvements 
have been made because of the willingness of people like you, 
Ms. Sepich, and you, Ms. Smith, to come forward and tell your 
stories. But we know that there is clearly a backlog issue, and 
we want to be smart about how we tackle that. I think anyone 
who has worked on the front line as a prosecutor understands 
this unfunded mandate issue, and we have to figure out how to 
be smart to get the right rape kits tested and to get them 
tested; that we also have to do better with training, 
everything from the nurses to the forensic scientists. And I 
was interested in some of Mr. Redding's points about the 
coordination with the police and prosecutors on the lab and 
improvements that can be made there.
    So those are the things that we are working on right now, 
and just for me, in my former job, which I loved very much--
especially I think back very lovingly to that job after what 
we've been going through the last month in Washington--but I 
just have these memories that are ever etched in my mind about 
how we were able to use this science to not just convict 
horrendous murderers and rapists, but I will never forget that 
case--and maybe Steve remembers this. We had someone come up 
from North Carolina--I think that was the State--who had 
identified who she thought was her rapist many years before, 
and he had served something like 6 years or a decade in prison, 
and then the DNA test, in fact, showed that it was not him. And 
he got out of prison, and the two of them actually became 
friends. The real person was already in jail and had been 
convicted, and they went around the country talking about 
eyewitness ID and improvements that had to be made to that.
    I remember a remarkable case we had--and maybe, again, you 
remember this one, Steve, where we had a burglary, and the 
burglar had broken some glass and got his blood on the glass 
shard, and then that DNA matched some DNA in another burglary, 
I think it may have been in Florida, in another State, and we 
were able to charge him as, like, number 34546 because we did 
not know who he was. We just had the record. I do not know if 
anything has ever come of that case, but it was a memory I have 
of just the improvements that we have made in this technology 
and the tool that it is, as you have pointed out, for any kind 
of case.
    So I am actually optimistic of the work that can be done 
here, the place that science has taken us, and all of you in 
your respective roles have been such a big part of that.
    So thank you very much, and we look forward to working with 
you on the reauthorization of the Violence Against Women Act 
and all the work that we will be doing in this area. Thank you 
very much.
    We will keep the record open for one week for any 
additional submissions, and the hearing is adjourned. Thank 
you.
    [Whereupon, at 11:53 a.m., the Committee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
